TN

C@OCKLE

Legal Briefs

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964

(402) 342-2831
Fax: (402) 342-4850

No, 20-1199

STUDENTS FOR FAIR ADMISSIONS, INC.,

Petitioner,
v.

PRESIDENT & FELLOWS OF HARVARD COLLEGE,

Respondent.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF AMICUS CURIAE
OF THE LOUIS D. BRANDEIS CENTER FOR HUMAN RIGHTS UNDER LAW AND THE
SILICON VALLEY CHINESE ASSOCIATION FOUNDATION IN SUPPORT OF PETITIONER,

in the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),

being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,

and this brief contains 5840 words, excluding the parts that are exempted by Supreme Court Rule

33.1(d), as needed.

Subscribed and sworn to before me this 31st day of March, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

Oudiaw-h, Ghee

 

a GENERAL MOTARY-State of Nebraska
f RENEE J, GOSS 9 .
My Comm. Exp. September 5, 2023

Notary Public

40749
